No. 21-144
IN THE

SEATTLE’S UNION GOSPEL MISSION,
v.
MATTHEW S. WOODS,

Petitioner,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF WASHINGTON
BRIEF OF AMICUS CURIAE
KEVIN C. WALSH
IN SUPPORT OF PETITIONER
KEVIN C. WALSH

Counsel of Record

UNIVERSITY OF RICHMOND
SCHOOL OF LAW
203 Richmond Way
Richmond, VA 23173
(804) 287-6018
kwalsh@richmond.edu
September 2, 2021

i
TABLE OF CONTENTS

Identity and Interest of Amicus Curiae ................... 1
Summary of Argument .............................................. 1
Argument .................................................................... 2
I.

The Court should grant certiorari to
reverse the state court’s
transformation of Lawrence v. Texas
and Obergefell v. Hodges into cases
establishing fundamental rights
enforceable against private
employers. .................................................. 2

II.

Neglect of the state-action
requirement for the federal rights
identified in Lawrence and
Obergefell is a mistake of federal
law and the judgment below does not
rest on an adequate and independent
state ground. .............................................. 5

CONCLUSION .............................................................. 11

ii
TABLE OF AUTHORITIES
Page(s)
Federal Cases

Espinoza v. Montana Dept. of Revenue, 140 S.Ct.

2246 (2020) ............................................................... 7-8

Lawrence v. Texas, 539 U.S. 558 (2003) ...........passim
Merrell Dow Pharmaceuticals v. Thompson, 478 U.S.
804 (1986) ................................................................. 6-7
Michigan v. Long, 463 U.S. 1032 (1983) ............. 10-11
Obergefell v. Hodges, 576 U.S. 644 (2015) ........passim
Ohio v. Reiner, 532 U.S. 17 (2001) ....................... 7, 11
Three Affiliated Tribes of Fort Berthold Reservation
v. Wold Engineering, P.C., 467 U.S. 138 (1984) ........ 7
United States v. Cruikshank, 92 U.S. 542 (1876) ..... 4
United States v. Morrison, 529 U.S. 598 (2000) .... 4, 8

Federal Statutes

28 U.S.C. § 1257(a) ...................................................... 4

iii
State Cases

Andersen v. King County, 138 P.3d 963 (Wa. 2006)

(plurality opinion) ....................................................... 6

State Statutes

RCW 49.60.040(11)...................................................... 2

IDENTITY AND INTEREST OF AMICUS CURIAE 1

Kevin C. Walsh is Professor of Law at the
University of Richmond School of Law. He teaches
and writes about the law of federal jurisdiction. He
has an interest in the institutional allocation of
responsibility for judicial decisions that attempt to
reshape religious institutions and teachings through
the application of federal law.
SUMMARY OF ARGUMENT

The Supreme Court of Washington has
transformed this Court’s decisions in Lawrence v.
Texas, 539 U.S. 558 (2003), and Obergefell v. Hodges,
576 U.S. 644 (2015), into cases establishing
fundamental rights enforceable against private
employers. This elimination of the state-action aspect
of the rights recognized in Lawrence and Obergefell
provides a template for unsettling legislative
accommodations nationwide. Because neither
Lawrence nor Obergefell recognized a fundamental
right enforceable against private religious employers,
this Court should grant the petition for certiorari and
reverse.

No counsel for any party has authored this brief in whole or in
part, and no person other than the amicus has made any
monetary contribution intended to fund the preparation or
submission of this brief. Counsel for amicus curiae provided
notice to counsel for the parties of the intention to file this brief
on August 27, 2021, five days before the September 2 due date.
Each consented although it was within ten days of the due date.
Institutional affiliation of amicus curiae noted for identification
purposes only.
1

2
Although the petition for certiorari identifies
significant and unsettled questions of First
Amendment law, this Court should correct the state
court’s erroneous expansion of Lawrence and
Obergefell directly. The targeted approach in this
amicus curiae brief makes it unnecessary to reach the
questions presented in the petition. But it does so
without prejudice to this Court’s ability to identify and
enforce petitioner’s First Amendment rights if that
later becomes necessary.
ARGUMENT
I.

The Court should grant certiorari to reverse
the state court’s transformation of Lawrence v.
Texas and Obergefell v. Hodges into cases
establishing fundamental rights enforceable
against private employers.

Matthew Woods brought this state-law action
against Seattle’s Union Gospel Mission alleging
discrimination on the basis of sexual orientation in
violation of a Washington employment-discrimination
statute. Wa. Op. 2a. The Mission obtained summary
judgment on the ground that it is not a covered
“employer” under that state law. Id. at 3a. The
statutory definition of “employer” includes a decadesold categorical exclusion of nonprofit religious
employers like the Mission. See RCW 49.60.040(11)
(“‘Employer’ includes any person acting in the interest
of an employer, directly or indirectly, who employs
eight or more persons, and does not include any
religious or sectarian organization not organized for
private profit.”).

3
On appeal, the Supreme Court of Washington
applied this Court’s decisions in Lawrence and
Obergefell to invest individual employment
applicants like Mr. Woods with “fundamental rights
to their sexual orientation and to marry whomever
they choose.” Wa. Op. 11a. The court then deployed
these federal-law-based fundamental rights to
invalidate under Washington’s state constitution, as
applied, Washington’s longstanding statutory
nonprofit-religious-employer exclusion. Wa. Op. 9a21a. The court concluded that the categorical
exclusion of nonprofit religious organizations from the
statutory definition of “employer” must be limited to
protect only those employment decisions implicating
the fundamental rights to sexual orientation and to
marry whomever one chooses that fall within the First
Amendment’s ministerial exception. See Wa. Op. at
20a-21a (“The ministerial exception … provides a fair
and useful approach for determining whether
application of RCW 49.60.040(11) unconstitutionally
infringes on Woods’ fundamental right to his sexual
orientation and right to marry.”).
The Supreme Court of Washington’s decision
was wrong because neither Lawrence nor Obergefell
recognized a fundamental right enforceable against
private parties. See Lawrence, 539 U.S. at 578
(stating that petitioners’ “right to liberty under the
Due Process Clause gives them the full right to engage
in their conduct without intervention of the
government”) (emphasis added); Obergefell, 576 U.S.
at 680 (holding that “[t]he Constitution … does not
permit the State to bar same-sex couples from
marriage on the same terms as accorded to couples of
the opposite sex”) (emphasis added). The rights
identified in Lawrence and Obergefell are rooted in

4
the Fourteenth Amendment. Both decisions respect
“the time-honored principle that the Fourteenth
Amendment, by its very terms, prohibits only state
action.” United States v. Morrison, 529 U.S. 598, 622
(2000); see also, e.g., Lugar v. Edmonson Oil Co., 457
U.S. 922, 936 (1982) (“Careful adherence to the ‘state
action’ requirement preserves an area of individual
freedom by limiting the reach of federal law and
federal judicial power.”); United States v. Cruikshank,
92 U.S. 542, 554 (1876) (“The fourteenth amendment
… adds nothing to the rights of one citizen as against
another. It simply furnishes an additional guaranty
against any encroachment by the States upon the
fundamental rights which belong to every citizen as a
member of society.”). A private religious employer like
the Mission has no governmental authority of the sort
circumscribed by this Court’s decisions in Lawrence
and Obergefell. The Mission has no power to
criminalize sexual activity or to decide what
marriages the state will or will not recognize. As a
matter of federal constitutional law, therefore,
Lawrence and Obergefell are entirely inapt for the use
to which the Supreme Court of Washington has put
them.
The
Supreme
Court
of
Washington’s
transformation of these cases into sources of rights
against private religious employers threatens to
unsettle legislative accommodations of gay rights and
religious freedom nationwide. This Court should
grant review and reverse.

5
II.

Neglect of the state-action requirement for the
federal rights identified in Lawrence and
Obergefell is a mistake of federal law and the
judgment below does not rest on an adequate
and independent state ground.

The
Supreme
Court
of
Washington’s
fundamental rights reasoning is so far removed from
the logic of Lawrence and Obergefell that one might
believe the basis of the decision to be some peculiar
aspect of state constitutional law. But the federal-law
basis of the Washington court’s decision is obvious
from the face of the court’s opinion. State
constitutional doctrine called for application of a twopart test, the first part of which required
identification of a fundamental right. See Wa. Op. 9a.
The Supreme Court of Washington relied on this
Court’s Fourteenth Amendment precedents to
identify two fundamental rights. See Wa. Op. 9a
(“Two of Woods’ fundamental rights are present in the
current case: the right to an individual’s sexual
orientation and the right to marry. See Lawrence v.
Texas (2003); Bowers v . Hardwick (1986) (Stevens, J.,
dissenting), overruled by Lawrence; Obergefell v.
Hodges (2015).”) (internal citations omitted); see also
id. at 11a (“As Lawrence, Obergefell, and Justice
Stevens’ dissent in Bowers contemplated, individuals
possess the fundamental rights to their sexual
orientation and to marry whomever they choose.”).
The furthest that the majority opinion went
toward sourcing these fundamental rights in state
constitutional law rather than federal was to suggest
in a footnote that “[t]he fundamental right to sexual
orientation does not appear to stem from just the
federal constitution but from our state constitution as

6
well.” Wa. Op. 11a n.3 (emphasis added). This
phrasing presupposes the court’s prior and principal
determination that this “fundamental right to sexual
orientation” stems at least from the federal
constitution. The statement suggests the possibility of
an additional state ground for one of the two
fundamental rights identified by the Supreme Court
of Washington on the basis of federal constitutional
law. As noted by the partial dissent, the majority’s
analysis says nothing about the other fundamental
right assertedly at issue—the right to marry. See Wa.
Op. at 40a n.5 (Stephens, J., dissenting in part)
(“Importantly, the majority does not address
Andersen v. King County, 158 Wn.2d 1, 30-31, 138
P.3d 963 (2006) (plurality opinion) (rejecting marriage
equality as a fundamental right), overruled by
Obergefell v. Hodges, 576 U.S. 644 … (2015).”) The
only grounds actually relied upon by the court
majority for both of the fundamental rights it
identified and enforced are federal, namely this
Court’s decisions in Lawrence and Obergefell.
To be clear, the Supreme Court of Washington’s
reliance on federal law came in the course of applying
article 1, section 12 of the Washington state
constitution. Both the statutory cause of action relied
upon by Mr. Woods and his constitutional contention
about its improperly narrow reach arose under state
law. But the jurisdictional question at this juncture is
not whether Mr. Woods’s claim arose under federal
law as a matter of 28 U.S.C. § 1331 or whether this
case was removable under § 1332. The question is
whether this court has appellate jurisdiction under 28
U.S.C. § 1257(a) to review the Supreme Court of
Washington’s application of Lawrence v. Texas and
Obergefell v. Hodges. The answer is “yes.” “[T]his

7
Court retains power to review the decision of a federal
issue in a state cause of action.” Merrell Dow
Pharmaceuticals v. Thompson, 478 U.S. 804, 816
(1986). In particular, this Court has “jurisdiction over
a state-court judgment that rests, as a threshold
matter, on a determination of federal law.” Ohio v.
Reiner, 532 U.S. 17, 20 (2001); see also 28 U.S.C.
§ 1257(a) (“Final judgment or decrees rendered by the
highest court of a State in which a decision could be
had, may be reviewed by the Supreme Court by writ
of certiorari … where any … right … is specially set
up or claimed under the Constitution … of … the
United States.”).
The decision here is a textbook example of why
“this Court retains a role when a state court’s
interpretation of state law has been influenced by an
accompanying interpretation of federal law.” Three

Affiliated Tribes of Fort Berthold Reservation v. Wold
Engineering, P.C., 467 U.S. 138, 152 (1984). It is

precisely because elimination of the state-action
aspect of the rights identified in Lawrence and
Obergefell is an error of federal law that this case
threatens to unsettle legislative accommodations of
gay rights and religious freedom nationwide. The
decision provides a blueprint to generate conflicts that
many
state
legislatures
have
avoided
or
accommodated through statutory limitations on state
anti-discrimination law. Whether any other state’s
analogue to Washington’s article 1, section 12
incorporates federal constitutional law the same way
that the court here has held that Washington’s does
would be a matter of that other state’s constitutional
law. But the Washington court’s understanding of the
content of federal constitutional law in Lawrence and
Obergefell is a matter a federal constitutional law. See

8

Espinoza v. Montana Dept. of Revenue, 140 S.Ct.
2246, 2262 (2020) (“The final step in this line of
reasoning eliminated the program …. But the Court’s
error of federal law occurred at the beginning.”); id.
(“Because the elimination of the program flowed
directly from the Montana Supreme Court’s failure to
follow the dictates of federal law, it cannot be
defended as a neutral policy decision, or as resting on
adequate and independent state law grounds.”).
One might analogize this Court’s review of the
Washington court’s error in expanding Lawrence and
Obergefell to this Court’s review of Congress’s
understanding of this Court’s precedent in enacting
Section 5 legislation. If Congress were to enact federal
legislation prohibiting private discrimination on the
basis of sexual orientation as a means of enforcing the
rights identified in Lawrence and Obergefell, such
legislation would not be congruent and proportional
because the rights identified in Lawrence and
Obergefell are rights against certain state action, not
private discrimination. Cf. United States v. Morrison,
529 U.S. 598, 626 (2000) (holding the private-remedy
provision of the Violence Against Women Act outside
of Congress’s Section 5 enforcement power because “it
is directed not at any State or state actor, but at
individuals who have committed criminal acts
motivated by gender bias”). Washington had no
obligation to incorporate Lawrence and Obergefell
into state constitutional law. Having done so, though,
its erroneous expansion is not insulated from review.
In his partial dissent from the Washington
court’s decision, Justice Stephens criticized the
majority’s reliance on federal constitutional law for
the identification of the fundamental rights to sexual

9
orientation and to marry whomever one chooses. Wa.
Op. 40a (Stephens, J., dissenting in part). After
explaining that the majority “locates these rights
exclusively in federal due process cases,” Justice
Stephens wrote that “[t]he majority’s analysis is
plainly built on the wrong constitutional foundation.”
Id. The validity of this criticism as a matter of state
constitutional law is not properly before this Court.
But its predicate puts the majority’s erroneous
expansion of Lawrence and Obergefell squarely at
issue here. Whether or not the Washington majority
should have done what it did as a matter of
Washington state constitutional law, Justice
Stephens is right that the court majority recognized
“marriage and the right to live free from
discrimination … as fundamental rights under federal
constitutional principles.” Id. at 40a n.4. That is to
say, whether state constitutional law should
incorporate federal constitutional law is a question of
state constitutional law. But having decided that
article I, section 12 protects fundamental rights as set
forth in Lawrence and Obergefell, the correctness of
the Washington court’s understanding of the nature
and scope of those rights is a matter of federal
constitutional law. The Supreme Court of Washington
could have relied only on its own constitutional law,
as Justice Stephens argued it should have done in his
partial dissent. But it chose instead to advance under
the cover of this Court’s precedents. That is why its
decision cannot escape this Court’s review.
Although relying on Lawrence and Obergefell
to supply the rights at issue in this case, see Wa. Op.
at 11a, the court at one point describes the
fundamental rights at issue in this case as
“fundamental rights of state citizenship.” Wa. Op.

10
14a. This description does not alter the federal-law
basis of the fundamental rights identified. The court
is simply using this language to describe how the
fundamental rights it finds in Lawrence and
Obergefell satisfy the first part of the two-part
doctrinal test implementing article 1, section 12 of the
Washington constitution. See Wa. Op. 14a (“Woods
has identified fundamental rights of state citizenship:
the right to one’s sexual orientation as manifested in
a decision to marry. The first requirement of our
article I, section 12 analysis is therefore satisfied.”);
see also Wa. Op. at 12a (“Though this case also
implicates the fundamental right to marry whomever
one chooses, it is not limited to this context. Also
implicated is the concomitant fundamental right to
sexual orientation. Woods has invoked these
fundamental rights, satisfying the first prong of the
article I, section 12 test.”) (emphasis added).
Even if there were any lingering ambiguity
about whether the Washington court’s judgment rests
on federal law, that would only trigger the
presumption of Michigan v. Long, 463 U.S. 1032,
1040-41 (1983):
When … a state court decision fairly
appears to rest primarily on federal law,
or to be interwoven with federal law, and
when the adequacy and independence of
any possible state law ground is not clear
from the face of the opinion, we will
accept
as
the
most
reasonable
explanation that the state court decided
the case the way it did because it
believed that federal law required it do
so.

11
The judgement here was to reverse the grant of
summary judgment in favor of the Mission and
remand for consideration of the ministerial exception.
The court’s determination that categorical exclusion
of nonprofit religious employers from the state antidiscrimination law is unconstitutional depends on the
Washington court’s improper expansion of Lawrence
and Obergefell. The opinion for the court contains no
“plain statement … that the federal cases are being
used only for the purpose of guidance, and do not
themselves compel the result that the court has
reached.” Michigan, 463 U.S. at 1041. Nor does “the
state court decision indicat[e] clearly and expressly
that it is alternatively based on bona fide, separate,
adequate, and independent grounds.” Id. Rather, this
is a case in which “[t]he decision at issue ‘fairly
appears … to be interwoven with the federal law,’ and
no adequate and independent state ground is clear
from the face of the opinion.” Ohio v. Reiner, 532 U.S.
17, 20 (2001), quoting Michigan v. Long, 463 U.S.
1032, 1040-41 (1983).
CONCLUSION

The Supreme Court of Washington has
transformed this Court’s decisions about limits on
certain state action in Lawrence v. Texas and
Obergefell v. Hodges into decisions establishing
“fundamental rights” enforceable against private
religious employers. Because neither Lawrence nor
Obergefell recognized a fundamental right
enforceable against private religious employers, this
Court should grant the petition for certiorari and
reverse.

12
Respectfully submitted,

/s/ Kevin C. Walsh
Kevin C. Walsh

Counsel of Record

University of Richmond
School of Law
203 Richmond Way
Richmond, VA 23173
Telephone: 804-287-6018
kwalsh@richmond.edu
Dated: September 2, 2021

